HHS/OIG, Audit - "Audit of the Office of Inspector General Excluded Providers in Mississippi," (A-04-02-07010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Office of Inspector General Excluded Providers in Mississippi,"
(A-04-02-07010)
December 13, 2002
Complete
Text of Report is available in PDF format (730 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Mississippi Division
of Medicaid (DOM) had adequate internal controls to prevent providers that had
been excluded from participating in federal health care programs by the Office
of Inspector General from being enrolled in and paid by the Medicaid program.
We found that the Mississippi DOM did not have adequate internal controls to
prevent payments to such providers.  As a result, the DOM paid $358,761
to excluded providers during state fiscal years 1997 through 2002.  Improved
internal controls are needed to prevent excluded providers from participating
in the Medicaid program.